American Eagle Financial Credit Union, Inc.

Visa® Credit Card Disclosure of Rates and Terms – Platinum Card
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
APR for Purchases

11.15% to 18.00% when you open your account.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

11.15% to 18.00% when you open your account.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

0.00% Introductory APR for 12 months on balance transfers made between
January 1 – March 31, 2020.
After that, your APR will be 11.15%
creditworthiness.

to 18.00% based on your

This APR will vary with the market based on the Prime Rate.
Penalty APR & When it Applies:

18.00%
This APR may be applied to your account if you make a late payment.

How Long will the Penalty APR Apply? If your APRs are increased due
to late payments, the Penalty APR will apply until you make six consecutive
minimum payments when due.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances, balance
transfers, convenience check, and overdraft protection transactions on the
transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee

None

Transaction Fees:
•
•
•
•

Balance Transfer
Cash Advance
Overdraft Protection
Foreign Transaction

Penalty Fees:
• Late Payment
• Over-the-Credit Limit
• Returned Payment

Either $10 or 3% of the amount of each transaction, whichever is greater.
Either $10 or 3% of the amount of each cash advance, whichever is greater.
Either $10 or 3% of the amount of each overdraft transaction, whichever is greater.
3% of each transaction in U.S. dollars.
Up to $37
None
$25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See
your account agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if you make a late payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise these rights is provided in
your account agreement.
The information about the costs of the cards described in this disclosure is accurate as of 11/2019. This
information may have changed after that date. To find out what may have changed, call us at 800.842.0145.
KEEP THIS DISCLOSURE FOR YOUR RECORDS.

11/2019

